BRIANE. FROSH
Attorney General

ELIZABETH HARRIS

ChiefDeputy Attorney General
CAROLYNQUATTROCKI
Deputy Attorney General
^»f^. -

STATE OF MARYLAND
FACSIMILE No.

OFFICEOFTHE ATTORNEY GENERAL

(410)576-6955

WRITER'S DIRECT DIAL No.

(410)576-6398

asnyder@oag.state.md.us

December4, 2019
By Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D. C. 20543

Re:

County Commissioners ofCarroll County, Maryland v. Maryland
Department of the Environment, No. 19-592

Dear Mr. Harris:

By letter dated November 26, 2019, this office was informed that the Court had

requested a response to the petition in the above-captioned matter to be filed by
December 26, 2019.

The respondent requests, under Rule 30. 4, a four-week extension

oftime permitting the response to be filed on or before January 23, 2019.

The extension is necessary because the thirty-day period for preparing the
response spans two holidays, which complicates both the drafting and printing processes.

Those complications, combined with the press of other matters and my duties as Deputy
ChiefofLitigation ofthe Office ofthe Attorney General ofMaryland, prompt me to seek
this extension to allow sufficient time to prepare the response, mn it through our office's
internal review process, and arrange for its printing. I have coordinated with counsel for

the petitioner, which has no objection to my request.
Sincerely,

^
Adam D. Snyder
Deputy Chief of Litigation

ec:

Christopher D. Pomeroy, Esquire

200 Saint Paul Place <« Baltimore, Maryland 21202-2021
Main Office (410)576-6300 «:» Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 .?» Health Advocacy Unit/Billing Complaints (410)528-1840
Health Advocacy Unit Toll Free (877) 261-8807 *:* Homebuilders Division Toll Free (877) 259-4525 *:* Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral. gov

